                                                               Issue Date
                                                                       September 25, 2009
                                                               Audit Report Number
                                                                       2009-CH-1015




TO:         Lucia M. Clausen, Director of Public Housing Hub, 5KPH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Public Housing Agency of the City of Saint Paul, Minnesota, Needs to
           Improve Its Administration of Its Section 8 Project-Based Voucher Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Public Housing Agency of the City of Saint Paul’s (Agency)
             Section 8 Project-Based Voucher program (program). The audit was part of the
             activities in our fiscal year 2009 annual audit plan. We selected the Agency’s
             program based upon our internal audit survey of the U.S. Department of Housing
             and Urban Development’s (HUD) oversight of the program and our analysis of
             risk factors relating to the housing agencies in Region V’s jurisdiction. Our
             objective was to determine whether the Agency effectively administered its
             program in accordance with HUD’s and its own requirements.

 What We Found

             The Agency needs to improve the administration of its program. It was unable to
             provide documentation showing that it conducted initial inspections before
             executing housing assistance payments contracts to support more than $1.3
             million in housing assistance and utility allowance payments. The Agency also
             did not ensure that more than $12,000 in duplicate housing assistance payments
             were not made to owners of program projects. Additionally, it did not obtain
             subsidy layering reviews of program projects as required by HUD’s regulations.



                                             1
           The Agency substantially complied with HUD’s and its requirements regarding
           housing assistance payments calculations. However, the Agency incorrectly
           calculated households’ payments, resulting in more than $7, 200 in overpayments
           and more than $9,500 in underpayments for the period January 1, 2007, through
           December 31, 2008.

           We informed the Agency’s executive director and the Director of HUD’s
           Minneapolis Office of Public Housing of minor deficiencies through a
           memorandum, dated September 24, 2009.

What We Recommend

           We recommend that the Director of HUD’s Minneapolis Office of Public Housing
           require the Agency to reimburse its program from nonfederal funds for the
           improper use of more than $26,000 in program funds, provide documentation or
           reimburse its program more than $1.3 million, and implement adequate
           procedures and controls to address the findings cited in this audit report.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Minneapolis Office of Public Housing and the Agency’s executive
           director during the audit. We provided our discussion draft audit report to the
           Agency’s executive director, its board chairman, and HUD’s staff during the
           audit. We held an exit conference with the executive director on September 9,
           2009.

           We asked the executive director to provide comments on our discussion draft
           audit report by September 17, 2009. The executive director provided written
           comments, dated September 17, 2009. The executive director disagreed with
           finding 1 and generally agreed with finding 2. The complete text of the written
           comments, along with our evaluation of those comments, can be found in
           appendix B of this report except for 18 pages of documentation that was not
           necessary for understanding the Agency’s comments and the last four numbers of
           a tenant’s Social Security number that the executive director included in his
           comments. A complete copy of the Agency’s comments plus the documentation
           was provided to the Director of HUD’s Minneapolis Office of Public Housing.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
      Finding 1: The Agency Needs to Improve the Administration of Its Program    6

      Finding 2: The Agency Substantially Complied with HUD’s and Its             9
                 Requirements for Program Housing Assistance Payments

Scope and Methodology                                                            12

Internal Controls                                                                14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             16
   B. Auditee Comments and OIG’s Evaluation                                      17
   C. Federal Requirements and the Agency’s Program Administrative Plan          33




                                            3
                      BACKGROUND AND OBJECTIVE

The Public Housing Agency of the City of Saint Paul (Agency) was created by the Minnesota
State Legislature, separate from the City of Saint Paul (City), and has been an independent
governmental unit since 1977. The Agency was created to own and manage public housing
properties and to administer the tenant-based Section 8 program in the City. Its historical roots
are in the Housing and Redevelopment Authority of the City of Saint Paul, a unit of the City
established by the Minnesota State Legislature in 1947. The Housing and Redevelopment
Authority’s initial goal was to remove slums and construct low-income housing in the City. In
the early 1970s, the Housing and Redevelopment Authority began administering a federal rent
subsidy program for eligible low-income households living in privately owned housing. The
program evolved into the Section 8 Existing Housing Assistance Program. That program now
serves more than 4,000 families. The Agency is funded by federal housing subsidies, rents paid
by residents, special purpose grants, and investment revenues. It receives no financial support
from City or county taxes and makes a payment in lieu of taxes to defray the cost of City and
county services.

A board of commissioners governs the Agency. The seven commissioners are appointed by the
City’s mayor and approved by the city council. Two commissioners represent public housing
residents. The board makes operational and budgetary decisions regarding the use of federal
funds allocated for housing. The Agency’s executive director is appointed by the board of
commissioners and is responsible for coordinating established policy and carrying out the
Agency’s day-to-day operations.

The Agency administers a Section 8 Housing Choice Voucher program funded by the U.S.
Department of Housing and Urban Development (HUD). It provides assistance to low- and
moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents
with owners of existing private housing. As of June 30, 2009, the Agency had 3,699 units under
contract with annual housing assistance payments totaling more than $25 million in program
funds.

In July 1999, the Agency’s board approved an initial limit of 100 program units that provide
rental assistance for eligible families who live in specific developments or units. On February 1,
2002, the Agency executed its first Project-Based Voucher program (program) housing
assistance payments contract. The Agency may use up to 20 percent of its Section 8 Housing
Choice Voucher program funding for its program. It is permitted to provide program funds to
newly constructed, existing, or rehabilitated units. Families must live in the unit for a minimum
of one year. After the initial year, the family may join the Section 8 Housing Choice Voucher
program, provided there is a voucher available. During November 2000, the Agency’s board
increased the initial limit of 100 units to 544 units for the program. As of November 26, 2008,
the Agency’s board had approved 403 program units in 21 projects. From February 1, 2002,
through December 31, 2008, the Agency made housing assistance and utility allowance
payments totaling nearly $17 million to program projects.

Our objective was to determine whether the Agency effectively administrated its program in
accordance with HUD’s and its own requirements to include determining whether the Agency (1)
                                               4
adequately administered its program, and (2) accurately computed housing assistance and utility
allowance payments for program households.




                                               5
                                RESULTS OF AUDIT

Finding 1: The Agency Needs to Improve the Administration of
                           Its Program
The Agency needs to improve the administration of its program. The problems occurred because
the Agency failed to exercise proper supervision and oversight of the program and also lacked
adequate procedures and controls to ensure that HUD’s requirements and its program
administrative plan were appropriately followed. As a result, it was unable to support more than
$1.3 million in housing assistance and utility allowance payments, and that $12,300 in program
funds was not used for duplicate housing assistance payments.


 The Agency Lacked
 Documentation to Support Its
 Projects’ Eligibility

              We reviewed 100 percent of the Agency’s program projects under housing
              assistance payments contract and/or receiving housing assistance payments as of
              December 31, 2008. The 18 program projects contained 372 units. The program
              project files were reviewed to determine whether the Agency maintained
              documentation to support that its projects were eligible. Our review was limited to
              the information maintained by the Agency in its program project files and HUD’s
              Minneapolis Office of Public Housing’s project files for the Agency. The Agency
              lacked documentation to support that

                  •   230 units in 10 projects had a subsidy layering review,
                  •   156 units in 13 projects had an initial housing quality standards inspection
                      conducted from February 2002 through December 2004, and
                  •   Duplicate housing assistance payments were not paid to owners.

              In response to our draft finding outline, the Agency provided documentation to
              support more than $6 million in housing assistance and utility allowance
              payments. The documentation included an initial inspection conducted in July
              2001.

 The Agency’s Procedures and
 Controls Had Weaknesses

              The weakness regarding missing initial inspection documentation occurred
              because the Agency lacked adequate procedures and controls to ensure that the
              required documents were completed and maintained in the program project files
              to determine project eligibility in accordance with HUD’s and its own
                                                6
             requirements. Contrary to its stated method of keeping unit records in participant
             files, the Agency maintained its initial inspections for Sankofa Apartments in the
             project file. The housing assistance payments contract for this project was
             executed in November 2008.

             We observed 10 units in seven of the Agency’s program projects during our audit
             and determined that the units were in substantial compliance with HUD’s housing
             quality standards. Of the 10 units observed, the Agency was unable to provide
             documentation to support that initial inspections were conducted for four units in
             the Agency’s program projects.

             The Agency’s Section 8 programs manager said that the program units were
             treated similarly to its Section 8 Housing Choice Voucher units in that they were
             inspected at least annually and before a new household moved into a unit.

             The error regarding subsidy layering reviews occurred because HUD’s
             headquarters Office of Public Housing and Voucher Programs incorrectly advised
             HUD’s Minneapolis Office of Public Housing and the Agency that subsidy
             layering reviews were not required for new construction and rehabilitation
             projects unless tax credits were involved. We provided this information to
             HUD’s Associate Deputy Assistant Secretary for Public Housing and Voucher
             Programs, who agreed that subsidy layering reviews were required for new
             construction and rehabilitation projects whether tax credits were involved or not.

             The duplicate housing assistance payments occurred because the Agency made a
             mistake.

Conclusion

             As a result of its weaknesses, HUD and the Agency lacked assurance that
             program funds were used efficiently and effectively. The Agency did not
             properly use program funds when it did not comply with HUD’s requirements.
             The Agency disbursed $1,250,868 in program housing assistance and utility
             allowance payments for program units without proper documentation showing
             that an initial inspection was conducted before the housing assistance payments
             contracts were executed, and made $12,395 in duplicate housing assistance
             payments.

             In accordance with HUD’s regulations at 24 CFR (Code of Federal Regulations)
             982.152(d), HUD may reduce or offset any administrative fee to the public
             housing agency, in the amount determined by HUD, if the public housing agency
             fails to perform public housing agency administrative responsibilities correctly or
             adequately under the program. The Agency received $114,491 in administrative
             fees related to the housing assistance payments that were made without evidence
             of an initial inspection having been conducted.

                                              7
Recommendations

          We recommend that the Director of HUD’s Minneapolis Office of Public Housing
          require the Agency to

          1A.     Provide supporting documentation or reimburse its program $1,365,359
                  from nonfederal funds ($1,250,868 in housing assistance and utility
                  allowance payments plus $114,491 in administrative fees) for the housing
                  assistance payments related to the units lacking evidence of an initial
                  housing quality standards inspection.

          1B.     Reimburse its program $12,395 from nonfederal funds for the duplicate
                  housing assistance payments cited in this finding.

          1C.     Implement adequate procedures and controls to ensure compliance with all
                  federal requirements for the operation of its program.

          1D.     Obtain the appropriate subsidy layering reviews for the program projects
                  cited in this finding.




                                           8
Finding 2: The Agency Substantially Complied with HUD’s and Its
       Requirements for Program Housing Assistance Payments
The Agency substantially complied with HUD’s and its requirements for program housing
assistance payments. However, it inaccurately computed payments when it overpaid more than
$7,200 and underpaid more than $9,500 in housing assistance and utility allowances. These
deficiencies occurred because the Agency needs to improve its existing procedures and controls
to ensure that its calculations were accurate and that HUD’s requirements and its program
administrative plan were appropriately followed.


 The Agency Made Incorrect
 Housing Assistance and Utility
 Allowance Payments

              We statistically selected 116 household files, with a total of $1,148,084 in
              housing assistance and utility allowance payments, from a universe of 613
              households receiving program housing assistance payments during the period
              January 1, 2007, through December 31, 2008, using data mining software. Our
              sampling criteria used a 90 percent confidence level and precision of plus or
              minus 10 percent. Our methodology for the sample selection is explained in the
              Scope and Methodology section of this audit report. The 116 files were reviewed
              to determine whether the Agency correctly calculated households’ housing
              assistance and utility allowance payments. Our review was expanded as
              necessary and was limited to the information maintained by the Agency in its
              household files, HUD’s Enterprise Income Verification system, and the
              LexisNexis Research system.

              According to HUD’s regulations at 24 CFR 5.240(c), public housing authorities
              must verify the accuracy of the income information received from program
              households and change the amount of the total tenant payment, tenant rent, or
              program housing assistance payment or terminate assistance, as appropriate,
              based on such information.

              The Agency’s calculation errors resulted in overpayments of $7,259 and
              underpayments of $9,563 in housing assistance and utility allowances. The
              Agency incorrectly calculated housing assistance and utility allowances for 33 (28
              percent) households in one or more certifications. The 33 files contained errors in
              the calculation of the households’ annual income, income deductions, and
              adjustments and the use of incorrect utility allowances.

              The 33 files contained the following errors:

                  •   22 had annual income calculation errors by the Agency for one or more
                      certifications,

                                               9
                •   Six had incorrect adjustment calculations for one or more certifications,
                •   Five had incorrect disability allowances for one or more certifications, and
                •   Four had incorrect utility allowance calculations for one or more
                    certifications.

             The Agency received $6,971 in program administrative fees related to the 18
             households that were overpaid housing assistance and utility allowances for the
             period January 1, 2007, through December 31, 2008.

The Agency’s Procedures and
Controls Had Weaknesses

             The weaknesses regarding incorrect calculations and inappropriate payments
             occurred because the Agency needs to improve its procedures and controls to
             ensure that it appropriately followed HUD’s regulations and its program
             administrative plan.

             The Agency’s Section 8 programs manager said that the program technicians
             checked each other’s work and that all housing assistance payment calculations
             were reviewed by a coworker. Quality control reviews were selected randomly
             for Section Eight Management Assessment Program compliance. Each file also
             contained a checklist to ensure that all required items were in the file. The
             supervisors might also conduct quality control reviews randomly. There was no
             set amount of files that were checked by supervisors.

             The Agency’s manager also said that at least one household failed to reverify its
             disability. Therefore, the Agency did not give this household the disability
             allowance of $400. This amount would have been deducted from the household’s
             annual income. The Agency’s program administrative plan did not state whether
             households were required to reverify their disabilities and when the reverifications
             would be required.

Conclusion


             As a result of its procedural and control weaknesses, HUD and the Agency lack
             assurance that program funds were used efficiently and effectively. The Agency
             overpaid $7,259 and underpaid $9,563 in housing assistance and utility
             allowances. The Agency did not properly use program funds when it failed to
             comply with HUD’s regulations and its program administrative plan. In
             accordance with HUD’s regulations at 24 CFR 982.152(d), HUD may reduce or
             offset any administrative fee to the public housing agency, in the amount
             determined by HUD, if the public housing agency fails to perform public housing
             agency administrative responsibilities correctly or adequately under the program.


                                              10
Recommendations

          We recommend that the Director of HUD’s Minneapolis Office of Public Housing
          require the Agency to

          2A.     Reimburse its program $14,230 ($7,259 in housing assistance and utility
                  allowance payments plus $6,971 in associated administrative fees) for the
                  overpayment of housing assistance and utility allowances cited in this
                  finding.

          2B.     Reimburse the appropriate households $9,563 for the underpayment of
                  housing assistance and utility allowances cited in this finding.

          2C.     Improve its existing procedures and controls to ensure that it complies
                  with HUD’s regulations and the Agency’s program administrative plan
                  regarding its housing assistance and utility allowance payments.




                                          11
                      SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws; regulations; Federal Register notices; HUD’s program requirements at 24
       CFR Parts 5, 35, 58, 982, and 983; Public and Indian Housing Notices 2001-04, 2004-01,
       and 2005-29; HUD’s Voucher Management System, HUD’s Public and Indian Housing
       Information Center, and the LexisNexis Research system.

   •   The Agency’s accounting records; annual audited financial statements for fiscal years 2007
       and 2008; program administrative plans, effective December 2008; program household files;
       project files; computerized databases; policies and procedures; program annual contributions
       contracts; board meeting minutes pertinent to the program; and organizational chart.

   •   HUD’s files for the Agency.

We also interviewed the Agency’s employees, HUD staff, and program households.

Finding 1

We reviewed 100 percent of the Agency’s program projects under housing assistance payments
contracts and/or receiving housing assistance payments as of December 31, 2008. The 18
program projects contained 372 units.

Our results determined that the Agency did not maintain initial inspection documentation for 156
units in 13 projects. The Agency provided the earliest inspections it maintained for the units;
therefore we limited our calculation of unsupported housing assistance and utility allowance
payments and administrative fees to the period between the housing assistance payments contract
execution date and the date of the earliest inspection provided.

Finding 2

We statistically selected 116 of the Agency’s program household files from the 613 households
that received housing assistance payments from January 1, 2007, through December 31, 2008,
using data mining software. The 116 household files were selected to determine whether the
Agency appropriately calculated the households’ housing assistance and utility allowance
payments and maintained documentation to support the households’ program eligibility. Our
sampling method was an unrestricted variable sample with a 90 percent confidence level and
precision level of plus or minus 10 percent.

Our sample results determined that 18 of the 116 (15.5 percent) households’ housing assistance
and utility allowances were overpaid, that 21 of the 116 (18 percent) household’s housing
assistance and utility allowances were underpaid.

We performed our on-site audit work between January and March 2009 at the Agency’s office
located at 555 North Wabasha Street, Suite 400, Saint Paul, Minnesota, and at HUD’s
                                              12
Minneapolis field office. The audit covered the period January 1, 2007, through December 31,
2008, but was expanded when necessary to include other periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined that the following internal controls were relevant to our audit
              objective:

              •   Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

              •   Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding resources – Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               14
Significant Weakness

           Based on our review, we believe that the following item is a significant weakness:

           •   The Agency lacked adequate procedures and controls to ensure compliance
               with HUD’s requirements and its program administrative plan regarding the
               administration of its program (see finding 1).

Separate Communication of
Minor Deficiencies

           We informed the Agency’s executive director and the Director of HUD’s
           Minneapolis Office of Public Housing of minor deficiencies through a
           memorandum, dated September 24, 2009.




                                            15
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

           Recommendation                                          Funds to be put
               number            Ineligible 1/    Unsupported 2/    to better use 3/
                  1A                                 $1,365,359
                  1B                 $12,395
                  2A                  14,230
                  2B                                                        $9,563
                 Totals              $26,625         $1,365,359             $9,563


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation                        Auditee Comments

             September 17, 2009

             Mr. Heath Wolfe
             Regional Inspector General for Audit
             U.S. Department of Housing & Urban Development
             77 West Jackson Boulevard, Suite 2646
             Chicago, Illinois 60604-3507

             Re: St. Paul PHA Response to HUD-OIG Discussion Draft Audit Report

             Dear Mr. Wolfe:

             We have reviewed the draft audit report of the Office of Inspector General (OIG) of
             the U.S. Department of Housing & Urban Development (HUD), based on your audit
             of the Saint Paul Public Housing Agency’s Section 8 Project-Based Voucher (PBV)
             program. We are pleased with the OIG’s finding that the PHA “substantially
             complied” with HUD’s regulations and the PHA’s own policies governing Housing
             Assistance Payments. The other draft finding, that the PHA “needs to improve” its
             administration of the PBV program, is based on the OIG’s conclusion that the PHA
             should have done two things differently (conducting subsidy layering reviews, filing
             initial unit inspection reports) when it began the PBV program and approved the
             original assistance contracts with the project owners. (The first contracts were signed
Comment 1    in 2002.) The OIG concedes that the PHA relied on guidance from HUD that subsidy
Comment 2    layering reviews were not required for some projects. The OIG also concedes that
             there was and is no specific HUD regulation, notice or guidance that obligated the
             PHA to retain original unit inspection reports past the general three-year record
Comment 3    retention requirement. If the PHA enters into any new PBV agreements, we will
             comply with the OIG’s interpretation of the requirements by conducting subsidy
             layering reviews on all new projects and by filing reports of the initial HQS
             inspections in a “project file” that will be available for audit purposes at any time
             during the life of the PBV HAP contract. As a result of this audit and similar audits
             of other housing agencies’ PBV programs, HUD’s Office of Public and Indian
             Housing should issue more guidance to field offices and housing agencies on these
             issues.

             The OIG auditor determined that the PHA made some errors in determining
             participant incomes, rents or utility allowances. We agree that the PHA made subsidy
             overpayments totaling $5385 and underpayments totaling $4649, in the 116 files
             audited. That represents an accuracy rate of 99.13% for the total of $1,148,084 the
             PHA paid in subsidies for those units, which is outstanding performance in any
             industry. The PHA stands ready to reimburse HUD and program participants (using
             non-HUD funds) for the subsidy overpayments and underpayments.


                                               17
Ref to OIG Evaluation                        Auditee Comments

             We appreciated the opportunity to present the PHA’s position on all of these issues at
             some length during the exit conference on September 9, 2009. We were pleased that
             the OIG revised the draft findings based on the additional materials and legal citations
             we presented then.

             We have great respect for the mission of the HUD Office of the Inspector General,
             and we are pleased that after the OIG’s staff spent almost eight months scrutinizing
             every detail of PBV project selection and program administration over an eight year
             span, the OIG makes NO findings of mismanagement, fraud or abuse. The PHA has
             paid almost $17 million in connection with the PBV program, and we believe this
             audit confirms that the money was spent correctly. In all, the PHA provided
             electronic records of 27,808 checks totaling $16,765,331 paid in connection with PBV
             units from their original contract dates through December 31, 2008. The OIG’s staff
             scrutinized these records carefully and cross-checked them against tenant file records.
             We are gratified that they found no evidence of financial mismanagement or
             malfeasance.

Comment 2    And as we will detail below, we believe the OIG exceeded its authority by attempting
             to hold the PHA accountable to a filing/record retention standard that does not exist in
             statute or regulation. The PHA disagrees with the OIG’s conclusion that the Agency
             did not prove that it inspected every PBV unit before signing the original subsidy
             contracts with the project owners. Despite our repeated requests for specific written
             evidence, OIG failed to cite any statute, regulation, notice, or other written guidance
             that specifically required the PHA to keep unit inspection records in paper in a
             “project file” from 2002 to the present.

Comment 4    The PHA has established beyond any reasonable doubt that it performed all PBV unit
             inspections at the appropriate time and in the appropriate manner prior executing the
             contracts and before approving PBV assistance for any individual unit, and the dates
             of the inspections are contained in HUD’s official PIC records. Furthermore, the
             PHA maintained records of these unit inspections in accordance with all of the
             requirements of HUD regulations.

             The operative federal regulation (24 CFR Sec. 982.158) specifically requires the PHA
             to maintain inspection records for a period of three years. The PHA fully complies
             with that regulation. The federal regulations also required regulations for the tenant-
             based program in Part 982 be applied to the PBV program except as otherwise
             expressly modified or excluded by Part 983. In other words, absent specific written
             regulation about how inspection records are to be maintained, the PHA should keep
             them the same way it does for its tenant-based program. The PHA fully complies
             with that regulation.




                                                18
Ref to OIG Evaluation                         Auditee Comments


             The PBV-specific regulation on records retention that was in effect when the
             PHA began its PBV program listed [only] two types of PBV records that had
             to be kept longer than the usual three-year retention period:
                     During the HAP contract term, and for at least three years thereafter,
                     the HA must keep a copy of:
                         (1) The HAP contract; and
                         (2) Records to document the basis for determination of the initial
                              rent to owner, and for the HA determination that rent to
                              owner is a reasonable rent (initially and during the term of the
                              HAP contract).
                     24 CFR Sec. 983.12(b) (eff. 6/1/1998 – 11/14/2005)

             This regulation is where HUD could have or would have directed PHA’s to
             retain initial inspection records “during the HAP contract term, and for at least
             three years thereafter” if that had been HUD’s intent. HUD chose not to make
             that a requirement, instead leaving the three year record retention requirement
             as the operative standard.

             Another federal regulation (24 CFR Sec. 908.101) requires PHA’s to complete
             and electronically submit a data form (HUD-50058) whenever a new tenant
             moves into a rental unit that will be subsidized by Section 8. The form
             includes the “Date unit last passed HQS inspection.” (Sec. 5h) The
             requirement to electronically file the form has been in place since 1995; and
             the regulation now says that: “Electronic retention of form HUD-50058 fulfills
             the retention requirement under this section.” HUD’s own electronic data
             storage system (PIC - Public and Indian Housing Information Center) contains
             every single HUD-50058 report, including the inspection dates, for every PBV
             unit subsidized by the Saint Paul PHA throughout the OIG audit period. Those
             records clearly confirm the original inspection dates (on or before the contract
             date) for many of the PBV units for which the original paper inspection reports
             have been destroyed.

Comment 5    The OIG asserts that the PHA should have maintained the original unit inspection
             reports (forever?) in each “project file”. This PHA, and others we have contacted,
             files the inspection reports in participant files (tenant files) and retains them for the
             required period of time. The PHA’s method of keeping unit records, including
             inspection records, in the participant files not only complies with federal regulation, it
             made and continues to make eminent sense.




                                                 19
Ref to OIG Evaluation                         Auditee Comments


Comment 2    The OIG has conceded that there is no specific regulation or other written guidance
             from HUD that required the PHA to maintain original inspection booklets in PBV
             project files from 2002 to the present. The PHA accepts that it is “okay” for OIG to
             cite the Agency for mistakes or violations of existing law and regulation it might have
             inadvertently made. However, the OIG should not invent standards it wished had
             been in place 10 years ago and then cite the PHA for failing to live up to this invented
             standard.

             The OIG should have conducted a review of the PHA’s administration of the PBV
             program for the time frame during which the PHA was actually required to maintain
             records. We are confident that an OIG audit of the program covering the time frame
             for which documents are required to be kept would have yielded little more than
             routine file discrepancies endemic to operating a program with as much complexity as
             the Section 8 PBV program. (In fact, this OIG audit did include some PBV projects
             for which the contracts were executed within the last three years, and the PHA did
             produce all of the original inspection reports for all of those units.)

Comment 6    Finding 1: The PHA disagrees with the OIG’s finding that “The [PHA] needs to
             improve its administration of its [PBV] program,” because we relied on HUD
             guidance on subsidy layering reviews and records retention. However, IF the PHA
             enters into any new PBV agreements, we will comply with the OIG’s interpretation of
             the requirements by conducting subsidy layering reviews on all new projects and by
             filing reports of the initial HQS inspections in a “project file” that will be available for
             audit purposes at any time during the life of the PBV HAP contract.
             Our PHA staff worked in close cooperation with the Minneapolis HUD Field Office
             staff as the PBV program developed, and we appropriately relied on the advice they
             provided directly, and the guidance they received from HUD Washington and relayed
             to us. In fact, had we done otherwise and ignored or violated HUD guidance we
             would have been properly criticized for that action.

             The specific findings under this heading and the PHA’s responses, as discussed in
             detail below, are as follows:

                 1. Subsidy layering reviews. The PHA appropriately relied on guidance from
                    HUD Washington via HUD Minneapolis Field Office.

                 2. Original unit inspection reports. The PHA inspected all units before
                    executing PBV contracts, and before approving a subsidy for any individual
                    unit. The PHA disagrees with the OIG’s finding that the PHA should have
                    retained original inspection documents longer than the three year period
                    required by HUD regulations. We also disagree with the OIG’s
                    recommendation that HUD require the PHA to repay HAP subsidies and




                                                 20
Ref to OIG Evaluation                        Auditee Comments


                    administrative fees for time periods before the earliest inspection reports in
                    our participant files.

             1. Subsidy Layering. In this finding the OIG acknowledges that the PHA relied on
                advice given by HUD Washington officials, that a “subsidy layering” review was
                not required unless a PBV project was also receiving Low Income Housing Tax
                Credits (LIHTC). Following that guidance from HUD Washington, the HUD
                Minneapolis staff did not require the PHA to provide information for HUD to
                conduct a subsidy laying review. (Subsidy laying reviews were conducted for the
                PBV projects that had tax credits.) Given the guidance from HUD Washington,
                we fail to see now what the PHA and HUD Minneapolis staff should have done
                differently: Ask some one else at HUD Washington? Conduct a subsidy layering
                review anyway, “just in case?” No. Operating in the real world in real time,
                PHA’s have no reason to second-guess guidance from HUD or to seek a “second
                opinion”.

Comment 7           We agree that the OIG is entitled, even obligated, to exercise its independent
                    judgment on issues such as this. However, we strongly disagree that this
                    should be an audit finding directed at the PHA. The proper result, we believe,
                    would be for the OIG to state in the audit report that the PHA (and HUD
                    Minneapolis staff) acted in accordance with guidance from HUD Washington,
                    so there was no fault on the part of the PHA and local HUD. The fault lies in
                    Washington; HUD headquarters should provide clearer guidance to its own
                    staff and to the field.

Comment 8           In fact, the financing packages for the PBV projects in question were
                    reviewed extensively by the professional staff at the Minnesota Housing
                    Finance Agency (MHFA, now “Minnesota Housing”) and other local agency
                    staff and consultants. Any possible excess subsidization would have been
                    discovered and prevented at that stage. The projects were proposed, reviewed
                    and selected for subsidies through an open, public MHFA process called the
                    Consolidated Request for Proposals (the “SuperRFP”). The project
                    developers were knowledgeable and experienced practitioners who pulled
                    together sufficient resources from a variety of public and private sources, to
                    create viable, affordable supportive housing and mixed income housing
                    developments. MHFA’s professional staff who reviewed each funding
                    package that went through the SuperRFP process were aware that the PHA
                    might award PBV assistance to the project in a subsequent selection process.
                    (The possibility that a project might be approved subsequently by the PHA
                    for PBV was not a factor in the MHFA selection process, however.) In
                    reality, the PBV project developers here, most of who are non-profit
                    organizations, have not been susceptible to “oversubsidization.




                                               21
Ref to OIG Evaluation                        Auditee Comments



Comment 2    2. Initial Project Inspections. The draft OIG audit report finding states that, “The
                [PHA] failed to ensure that … 156 units in 13 projects had an initial housing
                quality standards (HQS) inspection conducted.” Aside from the inaccuracy of
                this statement, this finding is based on novel OIG interpretations of filing
                procedures and document retention requirements. The OIG faults the PHA for
                not keeping original unit inspection reports in the PBV “project files” from 2002
                (when the first contracts were signed) to December 2008.

                 2.1. PHA provided the OIG with original printed inspection reports for about half
                      of the units (184 out of 372) initially, and many more after further manual
                      review of participant files.

                 2.2. The PHA could not produce copies of the original inspection reports for the
                      remaining units (42% of the total) for several (legally valid) reasons:

                     2.2.1. Some original inspection reports were destroyed in the normal course of
                            business, when participant files were purged for tenants who moved out
                            over 3 years ago.

                     2.2.2. Some original or early inspection reports were destroyed during file
                            purges of non-essential documents from files of then-current tenants, if
                            the documents were more than five years old.

                     2.2.3. Some PBV units did not lease up for months after the original pre-
                            contract inspection, so staff inspected them again before a tenant moved
                            in. In those cases staff retained the later inspection report in the tenant
                            file and usually did not keep the original inspection report. The later
                            inspection was required to avoid “late inspection” penalties under
                            SEMAP.
                           One example is the PBV project now called Seventh Landing, located at
                           1360 West Seventh Street in St. Paul. R.S. Eden developed and
                           manages the project to provide supportive housing for homeless youth
                           coming out of the Minnesota foster care system. The contract was
                           executed on July 3, 2003.
                           The project was approved for 12 PBV units. We have records of
                           original inspections on July 3, 2003 (the contract date) or earlier for
                           seven of the units. The available records clearly support the conclusion
                           that all twelve units were inspected on or before July 3, 2003; and
                           furthermore, it is clear that no subsidy was paid for any unit before it
                           passed an HQS inspection.




                                                22
Ref to OIG Evaluation                        Auditee Comments


                           Some units did not lease up until several months after the contract date
                           so the PHA inspected those units again and retained those inspection
                           reports. For example, for Unit #201, the first tenant (J.P., SSN XXXX-
                           XX-4921) moved into the unit on December 15, 2003, after the unit
                           passed an HQS inspection on November 4, 2003. The PHA’s HAP
                           register, provided to OIG, shows that no subsidy was paid for that unit
                           before that tenant moved in.

                     2.2.4. 24 CFR Sec. 982.159(e) requires the PHA to retain copies of unit
                           inspection reports for three years (only). At any time during that
                           “window” the OIG or other HUD staff, or the PHA’s own independent
                           public auditor, could have verified that the original unit inspections
                           were conducted. (The only exceptions would have been as stated in
                           2.2.3. above. Some, but not all, original inspection reports were
                           retained when a second inspection was conducted before the first tenant
                           moved in.)
                 2.3. HUD-50058 Reports. For each PBV unit for which the PHA paid a HAP
                      subsidy, there is a record (Form HUD-50058) on file with HUD in its PIC
                      tenant data system, showing the date that the unit passed the HQS inspection,
                      before the subsidy began. It is noteworthy that 24 CFR Sec. 908.101 has
                      required the HUD-50058 form to be electronically submitted since 1995 and
                      that effective September 30, 2009, “Electronic retention of form HUD-50058
                      fulfills the retention requirement under this section.” These records are
                      “business records” created and maintained in the normal course of business
                      (and subject to audit), so we believe they provide sufficient evidence that the
                      PHA conducted timely initial inspections.
Comment 9            The HAP register and HUD-50058 reports in combination create an
                     irrefutable written record that verifies that no subsidies were paid for any
                     PBV unit before the unit passed an HQS inspection. Combined with the
                     original inspection reports the PHA retained, we believe the documents
                     demonstrate that the PHA did inspect all units before executing the initial
                     HAP contract for each PBV project.

                 2.4. Owner Affidavits. The PHA has now obtained sworn affidavits from all of
                      the owners of the 14 projects for which the OIG has questioned the original
                      inspections. (Attachment C) Most of those owners worked with the PBV
                      projects from the start, and they have affirmed that the PHA required every
                      unit to pass the HQS inspection before the PHA would execute the contract
                      for PBV assistance.




                                                23
Ref to OIG Evaluation                        Auditee Comments



                 2.5. The OIG’s staff inspected a sample of ten PBV units in ten separate projects
                      in 2009 and confirmed that those units complied with HQS. Although some
                      conditions in a unit may change while it is occupied (due to wear and tear,
                      other damage, etc.), most of the design and structural elements required by
                      HUD’s housing quality standards would not change over time. In those
                      respects and as a practical matter, a unit that meets HQS now would have met
                      HQS when it was first approved for the program.

                 2.6. St. Paul PHA staff who have worked with Section 8 since the first PBV
                      projects began attest that the PHA always required every unit to pass an HQS
                      inspection before the PHA would execute the original Housing Assistance
                      Payments (HAP) contract for the project. That requirement is explicitly
                      stated in a December 19, 2001 staff report to the PHA Board, recommending
                      approval of a PBV project with the YWCA. (See Attachment D) The HUD
                      regulations have been clear on this requirement and PHA staff followed it to
                      the letter.

                 2.7.Other large housing authorities in the Twin Cities area recently confirmed to
                     PHA staff that they file original inspection reports in tenant files for PBV
                     projects, not in project files. If the OIG disagrees with this practice, it could
                     recommend that HUD’s Office of Public and Indian Housing issue guidance
                     to instruct all PHA’s to file original inspection reports in project files and to
                     retain them in perpetuity going forward. That sort of recommendation would
                     be rational and a legitimate outcome of the OIG review of the St. Paul PHA’s
                     PBV program administration. A retroactive unsubstantiated negative finding
                     by OIG is not a rational or legitimate outcome.

                 2.8.The PHA actually conducts more PBV unit inspections than are required by
                     HUD, since we inspect every unit in the program at least annually. As an
                     OIG staff member noted in an August 5, 2009 e-mail, the PHA is only
                     required to select a random sample of 20 % of the contract units in each
                     building for the annual inspections. PHA staff were aware of that option, but
                     we have always inspected every unit annually to ensure that the entire
                     property continues to be maintained well.

             Finding 2: Income, Rent and Utility Allowance Determinations. The OIG
             found that the PHA “substantially complied” with HUD’s regulations and the
             PHA’s own policies governing Housing Assistance Payments.




                                                24
Ref to OIG Evaluation                        Auditee Comments



             The PHA does agree with the draft audit report that some of our staff’s individual
             calculations for participant incomes, rents and utility allowances were incorrect.
             However, we do not agree with the OIG’s count of how many files contained
             calculation errors, or the total amounts overpaid or underpaid. By any measure, the
             number of significant errors cited (some of which are still in dispute) is very small.

             Again, we respect the OIG’s diligence in carefully reviewing a large number volume
             of tenant files and records and financial records (including the 27,808 checks totaling
             $16,765,331) related to the 372 PBV units from their original contract dates through
             December 31, 2008. The auditor randomly selected 116 individual tenant files and
             checked every calculation for income, rents, utility allowances and subsidies. Of
             those 116 files, the PHA agrees with the OIG auditor that the PHA overpaid the HAP
             subsidy for one or more months for nine participants, for a total overpayment of
             $5385. The PHA also agrees with the OIG auditor that the PHA underpaid the HAP
             subsidy for one or more months for twelve participants, for a total underpayment of
             $4649. That represents an accuracy rate of 99.13% for the total of $1,148,084 the
             PHA paid in subsidies for those units, which is outstanding performance in any
             industry. The PHA stands ready to reimburse HUD and program participants (using
             non-HUD funds) for the subsidy overpayments and underpayments.
             We appreciated that the OIG staff shared information during the course of the audit,
             including their periodically providing lists of the files in which they questioned our
             calculations. The PHA sent a written response to the OIG auditor on every one of
             those file discrepancies. Our responses generally fell into three categories: (1) The
             PHA agrees with OIG calculation; or (2) the PHA disagrees with OIG calculations
             (followed by an explanation); or (3) “PHA cannot determine OIG calculation”. In
             some cases the OIG’s staff accepted the PHA’s explanation and cleared the finding;
             and in other cases the OIG provided additional explanation for its calculations. But in
             some cases the PHA still disagrees with the OIG calculations or application of the
             rules.
             For example, we believe the OIG’s staff incorrectly calculated income and rents when
             the participant received Unemployment Insurance (UI) benefits (cited in four of the
             116 files).
                     Tenant file #89 illustrates this: The file contains a written statement from the
                     Minnesota Department of Employment and Economic Development (DEED)
                     that the participant/worker’s weekly unemployment benefit will be $254 per
                     week. It also states that the maximum amount of benefits available during the
                     worker’s benefit year is $5,503. The PHA calculated this income as $254 x
                     52 weeks or $13,208 annualized and set the rent (participant’s payment) and
                     HAP amount accordingly. When and if the UI benefit ends, the tenant would
                     request an interim adjustment.




                                                25
Ref to OIG Evaluation                       Auditee Comments



                     In contrast, the OIG used the $5,503 as the annualized income amount,
                     resulting in a lower adjusted income, a lower participant payment for the rent,
                     and a higher housing assistance payment. The OIG reported this case as a
                     subsidy underpayment by the PHA.

Comment 10           The PHA disagrees with the OIG’s method. Accepting the $5,503 as the
                     annual income reduces the $254/week actual income received to $105.82 per
                     week ($5503/52 weeks). The $5,503 will be received only for a period of 21-
                     22 weeks, and the rent/subsidy should be calculated on that basis.
                     Our staff’s interpretation is supported by written materials from Nan McKay
                     & Associates, one of the premier training providers and a frequent HUD
                     contractor. (Housing Choice Voucher Master Book, 12/1/2004 edition,
                     Section 3.1, page 3.1-12, copy attached as Attachment B).
             If anything, these disagreements between the OIG and the PHA on income, rent and
             utility allowance determinations underscore the frustrating complexity of the current
             rules and procedures governing income and rent calculations in the Section 8 voucher
             program. It is not surprising to us that our experienced, trained and well-supervised
             Section 8 staff would still make some interpretations (and a few outright errors) that
             will be detected and challenged by an experienced, knowledgeable professional OIG
             auditor who spent months reviewing every calculation and monthly payment for 116
             PBV participants over a two year period.

             Our staff must administer the program in “real time”, daily interviewing clients,
             receiving and verifying information from them and from third parties and online
             sources (HUD’s EIV system), making decisions as accurately and as promptly as
             possible, and then moving on to the next case. As the OIG notes in the draft audit
             report, PHA staff cross-check each other’s rent calculations, and Section 8 supervisors
             spot-check a number of randomly selected files during the year. In addition,
             supervisors annually select a random sample of files for the required SEMAP self-
             audits and check the documentation, income determinations and rent calculations.
             Every year those SEMAP self-audits turn up a small number of file errors, but few
             enough that the PHA continues to earn the SEMAP High Performer rating (now eight
             years).
             As stated above, reviewers from the HUD Minneapolis Field Office also review the
             PHA’s file documentation, income determination and rent calculation for a random
             selection of HCV files, which include the PBV files, during “Rental Integrity
             Monitoring” (RIM) reviews. Those reviews last occurred in 2003 and 2008 (the latter
             review was part of a larger “Tier 1” review). The HUD reviewers generally find some
             files where they disagree with the PHA’s calculations. In many of those cases the
             HUD reviewers agree with the PHA’s determination after discussing the staff’s




                                               26
Ref to OIG Evaluation                           Auditee Comments


               method, and any remaining files identified as errors are corrected by PHA staff. In
               the 2003 RIM review the HUD staff concluded that the number of actual file errors
               was low enough that they would not conduct a follow up review the next year.
               The PHA certainly aspires to “zero-error” performance levels, but we also are
               responsible for making the most efficient use of the scarce public resources entrusted
               to our agency. We probably could reduce the number of Section 8 file errors to near
               zero by employing more supervisors or internal auditors, or hiring auditors from
               outside the agency, who could review every file calculation, say, within 30 days of
               staff’s initial action on the file. Clearly that would be a waste of scarce resources that
               are intended to support affordable housing for households with very-low or extremely
               low incomes.
               The PHA stands ready to reimburse any of the PBV participants identified in the OIG
               audit who may have overpaid their share of the rent and utilities because the PHA
               paid too low a subsidy. The PHA will also use non-HUD funds to reimburse HUD
               for any excess HAP subsidies or utility allowances it paid on behalf of participants
               identified in the OIG audit. As explained above, the PHA agrees with the auditor on
               subsidy overpayments totaling $5385 and underpayments totaling $4649. The OIG’s
               auditor accepted the PHA’s explanations and cleared the initial findings of incorrect
               calculations in several other files. We suggest that staff from the PHA and HUD’s
               Field Office jointly review the remaining file calculations cited by the auditor,
               analyze why the PHA’s and OIG’s results differed, and determine which of those files
               constitute subsidy overpayments or underpayments. The PHA will then issue
               reimbursement checks.
               Section 8 Administrative Plan. We note that the OIG draft (p. 10) faults the PHA for
               not stating in our Section 8/HCV Administrative Plan “whether quality control
               reviews would be conducted and how they would be selected.” The OIG’s
               Recommendation 2C. is that the PHA “Improve its existing procedures and
               controls….”
Comment 11 We disagree that the PHA’s administrative plan should include many of the
               procedures recommended by the OIG. The declaration of policy and public housing
               agency organization that begins the U.S. Housing Act of 1937 as amended states the
               following:

                        It is the policy of the United States
                             (1) to promote the general welfare of the Nation by employing the funds
                             and credit of the Nation, as provided in this chapter— . . .
               (C) consistent with the objectives of this subchapter, to vest in public housing
               agencies that perform well, the maximum amount of responsibility and flexibility in
               program administration, with appropriate accountability to public housing residents,
               localities, and the general public…. (42 USC Sec. 1437; emphasis added)




                                                   27
Ref to OIG Evaluation                        Auditee Comments


             We have intentionally limited our Administrative Plan to policy issues and other
             specific provisions dictated by HUD. (Many regulations direct, “The housing agency
             shall state in its administrative plan….”) The PHA Board approves policy changes,
             which occur less frequently than procedure changes. Seeking Board approval for
             administrative procedures is undesirable for several reasons, including the following:
             (1) It can delay implementing procedural changes promptly; (2) it consumes the
             Commissioners’ time, which should be spent on “big picture” issues; and (3) most
             importantly, it distorts the Board’s role, inviting micromanagement of administrative
             details that should be staff’s purview. Furthermore, keeping procedural matters out of
             the Administrative Plan keeps the plan to a reasonable length and makes it more
             readable.
             CONCLUSION:
             We believe the PHA has administered the PBV program in an exemplary manner, as
             measured by eight consecutive years of High Performer SEMAP ratings. (The PHA’s
             rating was “Standard Performer in SEMAP’s first year, due to a very tight rental
             market that depressed the voucher utilization rate.)

                              SAINT PAUL PUBLIC HOUSING AGENCY SEMAP
                                              SCORES
                   110%
                   100%
                    90%
               SEMAP SCORES




                    80%
                    70%
                    60%
                    50%              97%                     100%   97%         93%    93%
                                            93%        93%                93%
                    40%       81%
                    30%
                    20%
                    10% 0
                     0%
                              2001   2002   2003   2004 2005 2006 2007          2008   2009   2010
                                                     PHA FISCAL YEAR
                                                                                                0


             Another headline confirming the PHA’s high performance and attention to details is
             the Agency’s record of zero audit findings on annual financial and compliance audits
             by independent professional auditors for twelve consecutive years. For an entity with
             an annual budget of approximately $64 million, the absence of any audit findings over
             a sustained period is a remarkable accomplishment.
             The PHA has been awarded a Certificate of Achievement for Excellence in Financial
             Reporting by the Government Finance Officers Association of the United States and
             Canada (GFOA), for four consecutive years, honoring the PHA’s “Comprehensive




                                                  28
Ref to OIG Evaluation                        Auditee Comments


             Annual Financial Report” (CAFR). The Certificate of Achievement is the highest
             form of recognition in the area of governmental accounting and financial reporting,
             and its attainment represents a significant accomplishment by the management and
             staff of a governmental unit or agency.

             The PHA has also received favorable ratings in other HUD audits for Rental Integrity
             Monitoring (RIM; 2003, 2004, 2008), the Voucher Management System (VMS) and
             others. The PBV program, with its 18 projects and 372 units, is a small subset of the
             more than 4000 units in our overall Housing Choice Voucher program, which has an
             annual budget of about $34 million. In addition to tenant-based Housing Choice
             Vouchers, the PHA administers Disability Vouchers (Mainstream), Section 8
             Moderate Rehabilitation Single Room Occupancy Vouchers, and now Veterans
             Administration-Supportive Housing (VASH) vouchers and Family Unification
             Program (FUP) vouchers. The PHA’s staff has implemented and managed each of the
             voucher programs diligently, with appropriate oversight by the PHA’s Board of
             Commissioners and senior staff. The Section 8 staff members are experienced, well
             trained and well supervised. Many of the line staff and most of the supervisors have
             decades of experience with Section 8, and they have developed a deep understanding
             of this important but complex program.
Comment 2    The OIG characterizes as “unsupported costs” the $1.2 million paid as HAP subsidies
             to PBV units for which the PHA can no longer produce an original pre-contract
             inspection report. In fact, the full amount is accounted for and supported by thorough
             documentation. The PHA used those funds to pay properly-calculated rent subsidies,
             to eligible PBV project owners, on behalf of eligible Section 8 participants, who were
             living in eligible units that passed HQS inspections before the subsidies started.
             There is no justification for the OIG's recommendation that HUD ask for the money
             back, or the related administrative fees.
             Under no circumstances should the PHA be required to repay any administrative fees
             it earned for operating the PBV program. As explained above, the PHA relied on
             guidance from HUD on the subsidy layering issue. The PHA fully complied with the
             records retention requirements in HUD regulations. The PHA did not pay any
             duplicate HAP subsidies. And finally, although the PHA’s staff erred on some
             calculations of income and rents, there is no evidence of systemic deficiencies in the
             PHA’s processes, training or supervision. Just as the PHA would not “dock” a
             worker’s pay for making an honest mistake on the job, HUD should not ask the PHA
             to repay Section 8 administrative fees because the Agency made a relatively small
             number of errors in paying subsidies.
             For all of the reasons set forth above, the PHA respectfully but strongly disagrees
             with the primary findings in the draft audit report issued by the Office of the Inspector
             General. We request that the OIG retract and revise significant portions of the




                                                29
Ref to OIG Evaluation                        Auditee Comments


             findings. We believe the PHA did appropriately administer the PBV program and the
             OIG should affirm that fact.
                 •   The PHA retained all unit inspection reports as required by HUD regulations,
                     and produced sufficient evidence to show that all PBV units in all projects
                     were inspected before the original subsidy contracts were signed. Each unit
                     was inspected again, as needed, before any subsidies were paid.
                 •   The PHA and Minneapolis HUD staff relied on guidance from HUD
                     Washington staff in deciding which PBV projects required subsidy layering
                     reviews.
Comment 12       •   The PHA did not make any duplicate subsidy payments.

Comment 13       •   The relatively few and minor disagreements over participants’ income, rent
                     and utility allowance calculations, some of which are still in dispute, are not
                     the result of inadequate procedures, training or supervision. The OIG should
                     recommend that Minneapolis HUD office staff review those file calculations
                     with the PHA and, if subsidy underpayments occurred in the past for
                     participants who are still in the program, corrections should be made. The
                     PHA will repay to HUD (from non-HUD funds) any subsidy overpayments.
                     The OIG should withdraw its recommendation to HUD that the PHA should
                     repay any administrative fees.
Comment 14       •   Most importantly, the OIG should withdraw its recommendation that HUD
                     should require the PHA to repay any housing assistance payment amounts
                     related to initial unit inspections. The OIG should direct its recommendations
                     about retaining initial unit inspection reports and conducting subsidy layering
                     reviews to HUD’s administrators in Washington so they can issue appropriate
                     guidance to housing authorities administering PBV going forward.

             Sincerely,
             Jon M. Gutzmann
             Executive Director
             JMG/FAH/MFD
             Enclosures:
             • [Attachment A deleted; finding cleared]
             • Attachment B, Nan McKay & Associates HCV “Master Book” p. 3.1-12
             • Attachment C, PBV Owner Affidavits (Inspections)
             • Attachment D, 12/19/2001 PHA Board report (“The [PBV] units must pass
                the Section 8 Housing Quality Standards (HQS) before PBA contracts can
                be executed.”)




                                               30
                            OIG Evaluation of Auditee Comments

Comment 1     We did agree that the Agency could not be expected to conduct the subsidy
              layering reviews since HUD’s headquarters Office of Public Housing and
              Voucher Programs incorrectly advised HUD’s Minneapolis Office of Public
              Housing and the Agency that subsidy layering reviews were not required for new
              construction and rehabilitation projects unless tax credits were involved.

Comment 2     The first two citations from the United States Code in the criteria section of this
              report contain the applicable requirements to retain the initial inspection
              documents. Since the housing assistance payments contracts are for a 10-year
              period, the only way to determine whether the dwelling units meet the housing
              quality standards at the time the contracts were initiated is to maintain the initial
              inspection documents.

Comment 3     The Agency is required to follow the program requirements.

Comment 4     The Agency was unable to provide documentation showing that it conducted
              initial inspections before executing housing assistance payments contracts.

Comment 5     The Agency maintained its initial inspections for Sankofa Apartments in the
              project file, contrary to its stated method of keeping unit records in participant
              files. The housing assistance payments contract for this project was executed in
              November 2008.

Comment 6     The improvement of its administration of the program is not limited to ensuring
              that subsidy layering reviews are conducted when required. The finding also
              refers to the missing documentation for the initial inspections and the duplicative
              housing assistance payments.

Comment 7     The discussion draft audit report and this final report stated that the Agency acted
              as advised by HUD headquarters.

Comment 8     HUD headquarters acknowledged that an error was made when it did not conduct
              subsidy layering reviews for 10 projects. This error does not waive the
              requirement for the subsidy layering reviews to be conducted.

Comment 9     We consider the actual inspection report to be evidence of the inspection results
              and date as opposed to a date of the form 50058 that an inspection was performed.

Comment 10 We used the Agency’s program administrative plan when performing our reviews
           and recalculations.

Comment 11 We agree and removed the statement from the finding.

Comment 12 The Agency did not provide sufficient documentation to support that the cited
           duplicative housing assistance payments were not made.

                                                31
Comment 13 HUD’s Minneapolis Office of Public Housing and the Agency will have the
           opportunity to review the cited file calculations during the audit resolution
           process.

Comment 14 The Agency did not provide any supporting documentation to warrant additional
           changes to the findings and recommendations.




                                             32
Appendix C

FEDERAL REQUIREMENTS AND THE AGENCY’S PROGRAM
             ADMINISTRATIVE PLAN

Finding 1
United States Code, title 42, chapter 8, subchapter I, part 1437f(o)(8)(A) states that except as
provided in paragraph (11), for each dwelling unit for which a housing assistance payments
contract is established under this subsection, the public housing agency shall inspect the unit
before any assistance payment is made to determine whether the dwelling unit meets the housing
quality standards under subparagraph (B).

United States Code, title 42, chapter 8, subchapter I, part 1437f(o)(8)(D) states that each public
housing agency providing assistance under this subsection shall make an annual inspection of
each assisted dwelling unit during the term of the housing assistance payments contract for the
unit to determine whether the unit is maintained in accordance with the requirements under
subparagraph (A). The agency shall retain the records of the inspection for a reasonable time
and shall make the records available upon request to the Secretary, the Inspector General for the
Department of Housing and Urban Development, and any auditor conducting an audit under
section 1437c(h) of this title.

United States Code, title 42, chapter 8, subchapter I, part 1437f(o)(13)(F) states that a housing
assistance payments contract pursuant to this paragraph between a public housing agency and the
owner of a structure may have a term of up to 10 years, subject to the availability of sufficient
appropriated funds for the purpose of renewing expiring contracts for assistance payments, as
provided in appropriations acts and in the agency’s annual contributions contract with the
Secretary, and to annual compliance with the inspection requirements under paragraph (8),
except that the agency shall not be required to make annual inspections of each assisted unit in
the development.

HUD issued a notice for fiscal year 2001, Revision to the Public Housing Agency Project-Based
Assistance Program, Initial Guidance, in the Federal Register, dated January 16, 2001, stating
that as in the tenant-based voucher program, a public housing agency must inspect 100 percent of
the project-based voucher units before entering into the housing assistance payments contract
and may only enter into a housing assistance payments contract for units that fully comply with
the housing quality standards.

HUD’s regulations at 24 CFR 983.52(c) state that before an agreement for rehabilitated units can
be executed, the public housing agency must obtain subsidy layering contract rent reviews from
HUD or a housing credit agency and obtain environmental clearance in accordance with 24 CFR
983.11.

HUD’s regulations at 24 CFR 983.55(b) state that before executing an agreement for new
construction units, the public housing agency must seek and obtain subsidy layering contract rent

                                                33
reviews from HUD or a housing credit agency and seek and obtain environmental clearance in
accordance with 24 CFR 983.11.

HUD’s regulations at 24 CFR 983.257(b) state that the public housing agency may only approve
or assist a project in accordance with HUD regulations and guidelines designed to ensure that
participants do not receive excessive compensation by combining HUD program assistance with
assistance from other federal, state or local agencies or with low-income housing tax credits.

HUD’s regulations at 24 CFR 983.55(a) state that the public housing agency may provide
program assistance only in accordance with HUD subsidy layering regulations (24 CFR 4.13)
and other requirements. The subsidy layering review is intended to prevent excessive public
assistance for the housing by combining (layering) housing assistance payments subsidy under
the program with other governmental housing assistance from federal, state, or local agencies,
including assistance such as tax concessions or tax credits. (b) The public housing agency may
not enter into an agreement or housing assistance payments contract until HUD or an
independent entity approved by HUD has conducted any required subsidy layering review and
determined that the program assistance is in accordance with HUD subsidy layering
requirements.

HUD’s regulations at 24 CFR 983.153(a) state that the public housing agency may not enter the
agreement with the owner until the subsidy layering review is completed (see 24 CFR 983.55).

HUD’s regulations at 24 CFR 983.103(a)(1) state that the public housing agency must examine
the proposed site before the proposal selection date.

HUD’s regulations at 24 CFR 983.103(a)(2) state that if the units to be assisted already exist, the
public housing agency must inspect all of the units before the proposal selection date and must
determine whether the units substantially comply with the housing quality standards. To qualify
as existing housing, units must substantially comply with the housing quality standards on the
proposal selection date. However, the public housing agency may not execute the housing
assistance payments contract until the units fully comply with the housing quality standards.

HUD’s regulations at 24 CFR 983.103(b) state that the public housing agency must inspect each
contract unit before execution of the housing assistance payments contract. The public housing
agency may not enter into a housing assistance payments contract covering a unit until the unit
fully complies with the housing quality standards.

Appendix K, I.C.4., of the Agency’s program administrative plan states that before the Agency
will provide voucher rent assistance, all developments must have Agency board and HUD
approval, meet HUD’s housing quality standards, and have an executed housing assistance
payments contract.

Finding 2
HUD’s regulations at 24 CFR 983.2(a) state that Part 982 is the basic regulation for the tenant-
based voucher program. However, paragraphs (b) and (c) of this section describe the provisions


                                                34
that do not apply to the Project-Based Voucher program. Therefore, the rest of Part 982 applies
to the program.

HUD’s regulations at 24 CFR 982.54(c) state that the public housing agency must administer the
program in accordance with the public housing agency’s administrative plan.

HUD’s regulations at 24 CFR 982.153 state that the public housing agency must comply with the
consolidated annual contributions contract, the application, HUD regulations and other
requirements, and its program administrative plan.

HUD’s regulations at 24 CFR 982.516(f) state that the public housing agency must establish
procedures that are appropriate and necessary to ensure that income data provided by applicant
or participant families is complete and accurate.

HUD’s regulations at 24 CFR 982.517(d) state that the public housing agency must use the
appropriate utility allowance for the size of dwelling unit leased by the family.

HUD’s regulations at 24 CFR 5.240(c) state that public housing agencies must verify the
accuracy of the income information received from program households and change the amount
of the total tenant payment, tenant rent, or program housing assistance payment or terminate
assistance, as appropriate, based on such information.

HUD’s regulations at 24 CFR 5.609(a)(2) state that annual income means all amounts, monetary
or not, which are anticipated to be received from a source outside the family during the 12-month
period following admission or annual reexamination effective date.

HUD’s regulations at 24 CFR 5.611(a)(2) state that in determining adjusted income, the
responsible entity must deduct from annual income $400 for any elderly family or disabled
family.

Part one, section IV.A.1., of the Agency’s program administrative plan states that annual income
will be anticipated for the 12-month period following the effective date of initial determination
of eligibility or the effective date of the reexamination of income. If it is not feasible to
anticipate a level of income for a 12-month period, the income anticipated for a shorter period
may be annualized, subject to a redetermination at the end of the shorter period.

Part three, section II.D.3., of the Agency’s program administrative plan states that a person with
a disability is a person with disabilities as defined in the Section 223 of the Social Security Act
or who has developmental disabilities as defined in Section 102(7) of the Developmental
Disabilities Assistance and Bill of Rights Act. The following is a summary of these
requirements:

“a. Section 223 defines a disability as an inability to be employed due to:
   (1) Any physical or mental impairment that is expected to last continuously for the next 12
       months or is expected to be fatal.
   (2) If a person over age 55 is blind, their blindness must prevent them from substantial
       employment comparable to what they did previously when they had eyesight.

                                                35
b. Section 102(7) defines developmental disability as:
   (1) A severe chronic condition that is due to a mental or physical impairment, or combination
       of both, which:
          • Was evident before the person was age 22;
          • Is likely to continue indefinitely; and
          • Results in substantial functional limitations.”




                                               36
